CERTIFICATE OF WORD COUNT

Case No. 20-5760

Case Name:
Daniel Frederickson v. State of California

Document Title:
Reply to Brief in Opposition

 

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying REPLY TO BRIEF IN OPPOSITION filed by petitioner, which
was prepared using Century Schoolbook 12-point typeface, contains 1,413
words, excluding the parts of the document that are exempted by Rule 33.1(d).
This certificate was prepared in reliance on the word-count function of the

word-processing system (Microsoft Word) used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.

DATED this 26th day of October 2020.

 
    

DOUGLAS G. WARD
Counsel of Record

350 Bay Street, P.M.B. #199
San Francisco, California
(415) 494-9252
wardhere@icloud.com

Counsel for Petitioner
